                                  Executive Summary

                                  Information Technology Security Controls over
                                  FDICconnect
                                                                              Report No. AUD-10-002
                                                                                     December 2009

Why We Did The Audit

The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct
an audit of FDICconnect.

The objective of the performance audit was to assess the FDIC’s information technology (IT)
security controls over FDICconnect that are designed to ensure the confidentiality, integrity, and
availability of the system. Specifically, the audit assessed selected IT security controls
pertaining to the core functionality and selected business transactions of FDICconnect.


Background

FDICconnect is a Web-based application that allows FDIC-insured financial institutions to
conduct business and exchange sensitive information (including privacy data) with the FDIC,
other federal regulatory agencies, and state banking departments. FDICconnect is one of the
most widely used Web-based applications at the FDIC.

KPMG used security standards and guidelines issued by the National Institute of Standards and
Technology (NIST) as its principal criteria in performing the audit.


Audit Results

KPMG found that the FDIC had established and implemented a number of important information
security controls over FDICconnect that are designed to ensure the confidentiality, integrity, and
availability of the system. Such controls include written information security policies and
procedures in substantially all of the areas that KPMG reviewed; key planning documents, such
as an application security plan, contingency plan, and configuration management plan; and
strong network perimeter security controls that include firewalls, an intrusion detection system,
and monthly scanning of FDICconnect servers to detect missing security patches and other
security vulnerabilities. Further, the Division of Information Technology (DIT) had certified and
accredited FDICconnect using a methodology consistent with NIST security standards and
guidelines.

The above accomplishments are notable. However, KPMG identified several security control
deficiencies warranting management attention. Specifically, DIT needed to strengthen its
configuration management controls for FDICconnect by ensuring that source code in the
production computing environment and the FDIC’s corporate software repository are consistent
and properly documented. DIT also needed to review FDICconnect user accounts in the
Microsoft Windows® Active Directory® and disable or delete accounts that are no longer
  Executive Summary
                                  Information Technology Security Controls over
                                  FDICconnect
                                                                             Report No. AUD-10-002
                                                                                    December 2009

needed. Further, DIT needed to update the security plan and contingency plan for FDICconnect
to address changes in the application’s technology and functionality. KPMG’s report contains
five recommendations to address these security control deficiencies.

KPMG’s report includes one additional recommendation intended to improve the FDIC’s Risk
Management methodology. Specifically, DIT should review and revise (where appropriate) its
risk assessment methodology to help ensure that risks associated with electronic transactions
involving the Internet are fully considered.


Management’s Response

On December 4, 2009, the Director, Division of Information Technology (DIT), provided a
written response to the draft report. DIT concurred with the recommendations, and its actions
and planned actions are responsive.

Because this report addresses issues associated with information security, we do not intend to
make public release of the specific contents of the report.
